                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

 Case Number: 109070036                                                                    Page 1 of 1



         OIG opened this investigation based on an allegation that a PI 1 at a university had
         misappropriated grant funds for personal living and traveling expenses on an NSF award. 3 In
         response to our query, the university credited the improper charges to the NSF award and worked
         with the PI to collect funds he had improperly received as reimbursement for personal living and
         travel expenses.

         The university then reviewed the PI's other NSF awards and noted that the PI may have had a
         conflict of interests on another NSF award4 in which he subcontracted work to a company5 in
         which he had an ownership interest. The NSF OIG investigation determined that the PI had
         falsely represented to the university that the company was selected competitively for the
         subcontract on the NSF award at his previous university. The university cancelled the
         subcontract and returned the monies that had been charged to the grant, and the PI submitted his
         resignation to the university. At our request, the NSF program officer reviewed the annual
         reports submitted by the PI on the grant and found insufficient evidence that relevant work was
         completed on the grant project. The university returned the full grant amount to NSF and
         requested that the grant be terminated, which NSF did. The university also returned the balance
         of grant funds on the initial award in which the PI had improperly received reimbursement for
         personal living and travel expenses. The total amount returned to NSF as a result of this
         investigation was $4 77,168.

         No further investigative activity is warranted. This investigation is closed.




NSF OIG Form 2 (11/02)
